No. 19-1366
TEW 6upreme

Court of ttje Ziliniteb 6tate5

SHIYANG HUANG, PETITIONER,
v.
VALESKA SCHULTZ, MELANIE 'WAUGH, ROSALIND STALEY,
INDIVIDUALLY AND ON BEHALF OF ALL OTHERS SIMILARLY SITUATED, ET AL.,
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
CERTIFICATE OF COMPLIANCE

Pursuant to this Court's Rule 33.1(h), I hereby certify that the Second Supplement Brief for Petitioner contains 479 words, excluding parts of the petition that are exempted
by Rule 33.1(d).
Pursuant to 28 U.S.C. ยง1746, I declare under penalty of perjury that the foregoing
is true and correct.
Executed on July 8, 2020.
/s/ Shivang Huang_
SHIYANG HUANG
Pro Per
2800 SW Engler Ct.
Topeka, KS 66614
(314) 669-1858
defectivesettlement@gmail.com

